No. 20-1499
IN THE

Supreme Court of the United States
AMERICAN CIVIL LIBERTIES UNION,
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 27th day of May 2021, caused a paper copy of the Brief of
Former United States Magistrate Judges as Amici Curiae in Support of Petitioner to
be delivered to the Court and an electronic version of the document to be delivered to:
Theodore B. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8668
tolson@gibsondunn.com

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for ACLU
Counsel for United States

/s/ Jessica Ring Amunson
Jessica Ring Amunson

